<html>
<title> - ASSESSMENT OF THE TRANSITION FROM A MILITARY TO A CIVILIAN-LED MISSION IN IRAQ</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






ASSESSMENT OF THE TRANSITION FROM A MILITARY TO A CIVILIAN-LED MISSION 
                                IN IRAQ

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                HOMELAND DEFENSE AND FOREIGN OPERATIONS

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 28, 2012

                               __________

                           Serial No. 112-162

                               __________

Printed for the use of the Committee on Oversight and Government Reform




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

75-464 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001













              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
DAN BURTON, Indiana                  ELIJAH E. CUMMINGS, Maryland, 
JOHN L. MICA, Florida                    Ranking Minority Member
TODD RUSSELL PLATTS, Pennsylvania    EDOLPHUS TOWNS, New York
MICHAEL R. TURNER, Ohio              CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 DENNIS J. KUCINICH, Ohio
CONNIE MACK, Florida                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
ANN MARIE BUERKLE, New York          GERALD E. CONNOLLY, Virginia
PAUL A. GOSAR, Arizona               MIKE QUIGLEY, Illinois
RAUL R. LABRADOR, Idaho              DANNY K. DAVIS, Illinois
PATRICK MEEHAN, Pennsylvania         BRUCE L. BRALEY, Iowa
SCOTT DesJARLAIS, Tennessee          PETER WELCH, Vermont
JOE WALSH, Illinois                  JOHN A. YARMUTH, Kentucky
TREY GOWDY, South Carolina           CHRISTOPHER S. MURPHY, Connecticut
DENNIS A. ROSS, Florida              JACKIE SPEIER, California
FRANK C. GUINTA, New Hampshire
BLAKE FARENTHOLD, Texas
MIKE KELLY, Pennsylvania

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                     Robert Borden, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director

    Subcommittee on National Security, Homeland Defense and Foreign 
                               Operations

                     JASON CHAFFETZ, Utah, Chairman
RAUL R. LABRADOR, Idaho, Vice        JOHN F. TIERNEY, Massachusetts, 
    Chairman                             Ranking Minority Member
DAN BURTON, Indiana                  BRUCE L. BRALEY, Iowa
JOHN L. MICA, Florida                PETER WELCH, Vermont
TODD RUSSELL PLATTS, Pennsylvania    JOHN A. YARMUTH, Kentucky
MICHAEL R. TURNER, Ohio              STEPHEN F. LYNCH, Massachusetts
PAUL A. GOSAR, Arizona               MIKE QUIGLEY, Illinois
BLAKE FARENTHOLD, Texas














                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 28, 2012....................................     1

                               WITNESSES

The Honorable Patrick F. Kennedy, Under Secretary for Management, 
  U.S. Department of State
    Oral Statement...............................................     4
    Written Statement............................................     6
Mr. Peter F. Verga, Chief of Staff for The Under Secretary for 
  Policy, U.S. Department of Defense
    Oral Statement...............................................    16
    Written Statement............................................    17
The Honorable Mara Rudman, Assistant Administrator, Bureau for 
  The Middle East, U.S. Agency for International Development
    Oral Statement...............................................    21
    Written Statement............................................    23
Mr. Michael J. Courts, Acting Director, International Affairs and 
  Trade, U.S. Department Accountability Office
    Oral Statement...............................................    33
    Written Statement............................................    35
The Honorable Harold W., Geisel, Deputy Inspector General, U.S. 
  Department of State
    Oral Statement...............................................    42
    Written Statement............................................    44
Mr. Joseph T. McDermott, Special Deputy Inspector General for 
  Southwest Asia, U.S. Department of Defense
    Oral Statement...............................................    53
    Written Statement............................................    55
Mr. Michael G. Carroll, Deputy Inspector General, U.S. Agency for 
  International Development
    Oral Statement...............................................    64
    Written Statement............................................    66
Mr. Stuart W. Bowen, Jr., Special Inspector General for Iraq 
  Reconstruction
    Oral Statement...............................................    80
    Written Statement............................................    82

 
ASSESSMENT OF THE TRANSITION FROM A MILITARY TO A CIVILIAN-LED MISSION 
                                IN IRAQ

                              ----------                              


                        Thursday, June 28, 2012,

                  House of Representatives,
       Subcommittee on National Security, Homeland 
                   Defense, and Foreign Operations,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 9:29 a.m., in 
Room 2154, Rayburn House Office Building, Hon. Jason Chaffetz 
[chairman of the subcommittee] Presiding.
    Present: Representatives Chaffetz, Farenthold, Tierney, and 
Lynch.
    Staff Present: Ali Ahmad, Majority Communications Advisor; 
Thomas A. Alexander, Majority Senior Counsel; Sharon Casey, 
Majority Senior Assistant Clerk; Mitchell S. Kominsky, Majority 
Counsel; Scott Schmidt, Majority Deputy; Jaron Bourke, Minority 
Director of Administration; Devon Hill, Minority Staff 
Assistant; Carla Hultberg, Minority Chief Clerk; Carlos 
Uriarte, Minority Counsel; and Ellen Zeng, Minority Counsel.
    Mr. Chaffetz. The Committee will come to order. I would 
like to begin this hearing by stating the Oversight Committee 
mission statement.
    We exist to secure two fundamental principles: First, 
Americans have the right to know that the money Washington 
takes from them is well spent and, second, Americans deserve an 
efficient, effective government that works for them. Our duty 
on the Oversight and Government Reform Committee is to protect 
these rights. Our solemn responsibility is to hold government 
accountable to taxpayers, because taxpayers have a right to 
know what they get from their government. We will work 
tirelessly in partnership with citizen watchdogs to deliver the 
facts to the American people and bring genuine reform to the 
federal bureaucracy. This is the mission of the Oversight and 
Government Reform Committee.
    Let me start at the outset here. I appreciate you all being 
here. The Country has invested a lot of time, money, blood, and 
resources to the mission in Iraq. This is an interesting day on 
Capitol Hill given everything that has happened at the Supreme 
Court and their decisions, what is happening on the Floor with 
the contempt vote that directly involves this Committee.
    You will see a limited number of members participating 
today. We do believe it is vital, though, to get all of the 
testimony that will be shared here today. The questions today 
will be probably somewhat limited, with the understanding of 
everything that is happening on Capitol Hill. We were faced 
with the decision as to whether or not to delay this hearing. 
We were concerned that that would push us back to the latter 
part of July, perhaps even August. We would like to be fairly 
close to a quarterly type of update and hearing given this, so 
we do appreciate all your testimony and hope you have an 
understanding of the complexity that is this day.
    Today's hearing is entitled Assessment of the Transition 
from the Military to a Civilian-Led Mission in Iraq, and I want 
to again thank you all for participating.
    We are going to focus today on our efforts in Iraq since 
the military withdrew on December 31st, 2011. We assess the 
Administration's progress, its prospects for success, and 
whether this strategy should be used as a model for Afghanistan 
in 2014. And I cannot emphasize this enough: We need to learn 
from the experiences that we have so that, as we go through 
this in another situation, we can make the most of it.
    On November 17, 2008, the Bush Administration and the 
Government of Iraq agreed that the United States would withdraw 
its troops by December 31, 2011. Keeping with that agreement, 
the Defense Department has removed all but approximately 275 
uniformed personnel. The remaining troops work under the Chief 
of Mission authority of the Office of Security Cooperation.
    The State Department has greatly expanded its footprint in 
Iraq. There are approximately 2,000 direct-hire personnel and 
14,000 support contractors, roughly a 7 to 1 ratio. This 
includes 7,000 private security contractors to guard our 
facilities and move personnel throughout Iraq.
    Leading up to the withdrawal, the State Department's 
mission seemed clear. Ambassador Patrick Kennedy testified the 
diplomatic mission was ``designed to maximize influence in key 
locations'' and later said ``State will continue the Police 
Development Programs, moving beyond basic policing skills to 
provide police forces with the capabilities to uphold the rule 
of law. The Office of Security Cooperation will help close gaps 
in Iraq Security Force's capabilities through security 
assistance and cooperation.''
    This is an unprecedented mission for the State Department. 
Nonetheless, our diplomatic corps has functioned without the 
protections of a typical host nation. It has also carried on 
without troop support that many believed that it would have. As 
a result, the embassy spends roughly 93 percent of its budget 
on security alone.
    Without a doubt, this is an enormously complex and 
difficult mission. Six months into the transition, the Congress 
must assess whether the Administration is accomplishing its 
mission. While the State Department has made progress, it 
appears to be facing difficult challenges in a number of areas. 
The Oversight Committee has offered some criticism based on 
their testimony today, including the Government Accountability 
Office noting that the State and Defense Departments' security 
capabilities are not finalized. The Special Inspector General 
for Iraq Reconstruction states that ``thousands of projects 
completed by the United States and transferred to the 
Government of Iraq will not be sustained and, thus, will fail 
to meet their intended purposes.''
    The Defense Department Inspector General's Office explains 
that the lack of status of forces agreement has impacted land 
use agreements, force protection, passport visa requirements, 
air and ground movement, and our foreign military sales 
program. And the USAID Inspector General's Office testifies 
that ``According to the USAID mission, the security situation 
has hampered its ability to monitor programs. Mission personnel 
are only occasionally able to travel to the field for site 
visits.''
    Embassy personnel have also told Committee staff that the 
United States Government has difficulty registering its 
vehicles with the Iraqi government and Iraqis have stood up 
checkpoints along supply lines. According to one official, the 
embassy must dispatch a liaison ``to have tea and figure out 
how we are going to get our trucks through.''
    These are just some of the challenges the State Department 
is facing in Iraq today. Perhaps as a result of these 
conditions Mission Iraq appears to be evolving. In an effort to 
be more efficient, the State Department is evaluating its 
footprint, reducing personnel, and identifying possible 
reductions. This rapid change in strategy, however, raises a 
number of questions. Are we on the right track? Are we 
redefining the mission? What should we expect in the coming 
months? And, in hindsight, was this a well managed withdrawal?
    The purpose of this hearing, therefore, is to gain some 
clarity about our efforts in Iraq. Moreover, we need to examine 
whether such transition is possible in how we execute in 
Afghanistan. Our Nation's down-draw is only two years away and 
will likely present a greater challenge than Iraq. We need to 
have answers before we commit billions in taxpayers dollars.
    We continue to look at these issues over the coming months 
and we look forward to hearing the testimony from the panel, as 
I said before.
    I would like to now recognize the distinguished Ranking 
Member, the gentleman from Massachusetts, Mr. Tierney, for his 
opening statement.
    Mr. Tierney. Thank you, Mr. Chairman. You were talking 
about whether or not this is a well managed withdrawal. It 
basically was an ill-conceived venture in the beginning and 
flawed implementation for much of the time that we were there, 
so I think the withdrawal concept is particularly difficult to 
do, and we have to keep that in mind.
    I am going to ask unanimous consent that my prepared 
remarks be placed on the record so that we can sort of expedite 
the hearing and move forward and hear from the witnesses.
    Mr. Chaffetz. So ordered.
    [Prepared statement of Mr. Tierney follows:]
    Mr. Chaffetz. Thank you. I really do appreciate it.
    Members may have seven days to submit opening statements 
for the record.
    We will now recognize our first panel.
    Ambassador Patrick Kennedy is the Under Secretary for 
Management at the United States Department of State; Mr. Peter 
Verga is the Chief of Staff of the Under Secretary for Policy 
at the United States Department of Defense; and the Honorable 
Mara Rudman is the Assistant Administrator for the Middle East 
Bureau at the U.S. Agency for International Development.
    Pursuant to Committee rules, all witnesses will be sworn 
before they testify. Please rise and raise your right hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    [Witnesses respond in the affirmative.]
    Mr. Chaffetz. Thank you. You may be seated.
    Let the record reflect that the witnesses all answered in 
the affirmative.
    In order to allow time for discussion, please limit your 
verbal testimony to five minutes. Your entire written statement 
will be part of the record.
    We would now like to recognize Ambassador Kennedy for five 
minutes.

                      WITNESSES STATEMENTS

         STATEMENT OF THE HONORABLE PATRICK F. KENNEDY

    Mr. Kennedy. Chairman Chaffetz, Ranking Member Tierney, 
distinguished members, thank you for inviting me to discuss the 
State Department's operations in Iraq after the military to 
civilian-led transition.
    U.S. Forces completed their withdrawal from Iraq in 
December 2011, marking a significant milestone in our bilateral 
relationship. Our strategic goal continues to be a united, 
unified, democratic, and stable Iraq.
    While security has improved overall, the situation on the 
ground remains challenging. Nonetheless, our diplomatic 
engagements are robust. Our embassy meets regularly with 
President Talabani, Prime Minister Maliki, cabinet members, 
parliamentarians, and civil society leaders.
    The State Department has always planned to align our 
presence in Iraq with other comparable U.S. Missions, but 
transition planning called for a robust structure that could 
handle multiple situations. Now that we have successfully 
transitioned, we are methodically streamlining our operations 
in a phased approach which we call the glide path. This 
recognizes that security did not deteriorate when U.S. Forces 
departed and that the Government of Iraq also recognizes the 
value of a streamlined U.S. Mission.
    We have been evaluating our presence and reducing 
personnel, sites, and agency programs under Chief of Mission 
authority. We expect to reduce direct hire staffing 25 to 30 
percent by the end of 2013. This is not arbitrary. Rather, we 
examined our operations and determined how they could be made 
more efficient. We have hired more Iraqis, with 240 of the 400 
planned direct hires now on board. We have also emphasized to 
our contractors the need to hire Iraqis as well.
    Over the next 18 months we will consolidate onto the 
embassy compound and relinquish three facilities in Baghdad: 
The Baghdad Police College Annex, OSC-I Headquarters, and the 
Prosperity Support Annex. We will continue to make adjustments 
to support a robust and secure, yet appropriately sized 
platform.
    I would like to provide an update touching on a few key 
elements of our support platform.
    Our Iraqi planning began in late 2009 and involved an 
interdisciplinary team from within the Department working 
closely with our DOD and AID colleagues. Since the follow-on 
negotiations to the 2008 U.S.-Iraq Security Agreement were not 
completed, our predicate was that we had to be self-sufficient.
    On October 1st of 2011, the embassy and our consulates were 
fully operational and mission capable, as we had long planned. 
While the term mission capable comes from DOD lexicon and has 
not been previously applied to State operations, we were fully 
engaged in all diplomatic, consulate, and support activities, 
even though some of our facilities were not fully complete. We 
have continued to complete our facilities and, despite the 
challenging environment, we have been and will continue to 
carry out our diplomatic mission.
    Task orders for static and movement security were awarded 
under the Worldwide Protective Services contract for all State 
Department sites. The Bureau of Diplomatic Security is 
performing its increased oversight to ensure the 
professionalism of security contractor personnel.
    State Department requested that DOD continue to provide 
life support services through 2013 under the competitively 
awarded LOGCAP and via the Defense Logistics Agency. Our 
partnership with the Department of Defense remains highly 
effective. A post-transition working group meets twice a month 
to discuss life support. We are working on local sourcing of 
more food and fuel. Looking forward, State plans to award a 
life support contract to replace LOGCAP by the end of 2013.
    Under an existing competitively awarded contract, our 
aviation operations support all U.S. Government elements in 
Iraq, using five dedicated fixed-wing and 31 helicopters. 
Missions include medical evacuation, movement of security 
support, personnel, transportation of personnel within Iraq, 
and movement of personnel into and out of Iraq. We plan to 
downsize that program under the glide path.
    In conclusion, the scope of the Department's diplomatic 
activities in Iraq remains larger than any of our past efforts. 
As Secretary Clinton said during remarks at the Virginia 
Military Academy in April, in Iraq, we have completed the 
largest transition from military to civilian leadership since 
the Marshall Plan. Civilians are leading our lasting 
partnership with a free and democratic Iraq.
    Mr. Chairman, we are committed to assisting Iraq in 
securing the gains it made with U.S. Assistance towards 
becoming a secure, stable, and self-reliant country as 
efficiently and effectively as possible. Thank you again for 
inviting me here today and for your ongoing support of the 
Department of State. I welcome any questions you might have. 
Thank you, sir.
    [Prepared statement of Mr. Kennedy follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Farenthold. [Presiding.] Thank you very much, 
Ambassador Kennedy.
    We will now recognize Mr. Peter Verga, the Chief of Staff 
for the Under Secretary for Policy for the U.S. Department of 
Defense. You are recognized for five minutes, sir.

                  STATEMENT OF PETER F. VERGA

    Mr. Verga. Thank you, Mr. Chairman. I appreciate that. 
Member Tierney, distinguished Committee members, I do 
appreciate the opportunity to appear before you today, along 
with my Department of State colleagues, to provide you an 
update on the United States' transition from a military to 
civilian-led presence in Iraq.
    Given Iraq's importance, situated strategically in the 
Middle East, it remains profoundly in the United States' 
national interest that Iraq emerge as a strategic partner with 
the United States, a sovereign, stable, self-reliant nation, 
and a positive force for moderation and stability in the 
region. In the time since we last appeared before this 
Committee, the United States has upheld its commitments in the 
2008 U.S.-Iraq Security Agreement by withdrawing all U.S. 
Forces by the end of December 2011.
    The Department of Defense has worked closely with 
Department of State to help ensure a successful transition to a 
civilian-led presence in Iraq. Before, during, and after the 
transition, DOD provided all possible support to posture State 
for success as U.S. Forces withdrew from Iraq. Today, the 
Department of Defense continues to work with Department of 
State to help meet its needs through assignment of DOD 
personnel, extensions of equipment loans, and contracting 
assistance.
    The focus is now on cementing a normalized presence in Iraq 
with Department of State in the lead. That means building on 
years of working with the Iraqis to create a lasting, long-term 
security relationship, including a robust foreign military 
sales program. Currently, our FMS program with Iraq is the 
fourth largest in the region and the ninth largest in the 
world, with a total value of approximately $11.6 billion.
    Of all the FMS cases with Iraq, the F-16 case stands out as 
the cornerstone of the long-term U.S.-Iraq strategic 
relationship. Iraq has requested the sale of 36 F-16s and 
associated training, at a value of approximately $6 billion. To 
date, Iraq has deposited approximately $2.5 billion towards 
that sale and deliveries of the first aircraft are scheduled in 
September of 2014.
    We are now at a point where the strategic dividends of our 
efforts are within reach. DOD has worked closely with 
Department of State to help ensure a successful transition to 
the civilian-led presence in Iraq. That successful transition 
enables us to concentrate on building that long-term strategic 
partnership based on mutual interests and mutual respect.
    Finally, Iraq, through its substantial FMS program, is 
demonstrating its desire for long-term strategic partnership 
and its commitment to this program is a testimony to the future 
of the U.S.-Iraq partnership.
    I thank you for your attention and look forward to your 
questions.
    [Prepared statement of Mr. Verga follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Farenthold. Thank you very much.
    We will now recognize the Honorable Mara Rudman, the 
Assistant Administrator for the Middle East Bureau at the U.S. 
Agency for International Development. Ms. Rudman, you are 
recognized for five minutes.

             STATEMENT OF THE HONORABLE MARA RUDMAN

    Ms. Rudman. Thank you, Mr. Chairman and Ranking Member 
Tierney. Thank you for the opportunity to discuss USAID's work 
in the context of the transition from a military-led to a 
civilian-led mission in Iraq.
    Our goal is a stable, self-reliant, unified Iraq. This is 
critical to U.S. Interests in the Middle East. It is a goal 
made possible through enormous sacrifice by Americans and 
Iraqis alike.
    USAID is adjusting its footprint in Iraq in align with its 
development strategy and programmatic needs. We are focused on 
Iraq's sustainable development under the terms of the U.S.-Iraq 
Strategic Framework Agreement.
    Over the past 10 years, USAID's role in Iraq progressed 
through three distinct stages:
    Immediately after the invasion, USAID's emphasis was on 
restoring essential infrastructure and services, and supporting 
transitional democratic processes.
    Then, as part of the military and civilian 
counterinsurgency campaign, we concentrated on stabilizing 
Iraqi communities and strengthening governmental institutions.
    Now, with the completion of the transition to civilian 
leadership of the U.S.'s effort in Iraq, USAID's focus is on 
helping Iraqis improve how they manage their own resources for 
development.
    Our ability to adapt and work closely with the Iraqi 
government and people has provided critical continuity to our 
work. Our current efforts reflect lessons learned over these 
years, particularly in the need for greater oversight and 
prioritization of sustainability.
    Today, USAID provides technical assistance to Iraqis to 
improve their abilities to finance and implement their own 
development projects. We are also working with Iraqis to 
strengthen civil society and increase civic participation, 
implement reforms that will encourage private sector-led 
economic growth, support development of good governments and 
democratic institutions, support ethnic and religious 
minorities, and provide durable solutions for the reintegration 
of internally displaced persons.
    All of our efforts are designed with sustainability in mind 
so that, as an end goal, Iraqis will manage every one of these 
projects without U.S. Assistance.
    In addition to the considerable human capital of the Iraqi 
people themselves, Iraq has great oil wealth. Revenues from the 
oil industry, which has yet to reach its full potential, supply 
nearly all of the Iraqi government's budget. Sadly, the 
country's institutions and ability to deliver services has been 
degraded by decades of war, misrule, and other factors. 
Rebuilding the structure, resiliency, and effectiveness of the 
state, the private sector, and civil society is where Iraq 
still needs help. Thus, our current programs are focused 
primarily on improving the capacity of Iraqi government 
institutions and consist largely of technical assistance that 
requires the Iraqis to match USAID contributions on a dollar-
for-dollar basis. These efforts stand in stark contrast to the 
much larger relief, infrastructure, or stabilization projects 
in which we were earlier engaged.
    We work with the Government of Iraq to first establish 
common objectives for new activities. We then come to an 
agreement with the GOI on its required matching contributions 
and plans for transitioning ultimate responsibility for 
projects to the government. Throughout implementation, we 
monitor and measure the GOI's progress and require cost-sharing 
contributions. These steps help ensure long-term Iraqi 
investment and commitment to the sustainability of USAID 
activities that specifically benefit their governing 
institutions.
    This focus on sustainability is not simply good development 
practice; it also reflects congressional guidance. In early 
2009, the State Department and USAID, in consultation with 
Congress, adapted a set of policy guidelines on Iraqi 
Government matching for U.S. Assistance funds which require 
financial or in-kind Iraqi Government counterpart contributions 
for most U.S.-funded foreign assistance programs and projects 
that directly benefit or involve the Iraqi central government.
    Ensuring that the resource provided for American taxpayers 
are used effectively and that our contributions to Iraq's 
progress yields sustainable results requires both careful and 
consistent monitoring on our part and engagement of the Iraqi 
Government and our other partners. Thus, in addition to 
standard USAID protections against waste, fraud, and abuse, 
including checks on terrorist financing, we have designed an 
extensive and effective oversight system that is tailored for 
the unique operating environment in Iraq.
    USAID also contracts with a third-party monitoring and 
evaluation implementer that conducts independent evaluations of 
all of our projects.
    There are multiple independent oversight bodies that also 
review our programs and, collectively, these entities have 
conducted more than 300 financial and performance audits since 
2003.
    Finally, our focus on sustainability extends to the very 
staffing of our effort in Iraq. In fiscal year 2012 and beyond, 
we will reduce the number of foreign service offices at our 
mission and we will hire and train more locally employed Iraqis 
to perform the functions that have previously been handled by 
third-country nationals.
    In summary, our programs in Iraq are designed to help 
Iraqis use their own resources to foster self-reliance, 
maintain stability, and increase their well-being. Our 
continued commitment to Iraq demonstrates the importance we 
place on the mutual interests and benefits of this long-term 
partnership.
    I too appreciate the opportunity to appear before you 
today, and I am happy to answer your questions. Thank you.
    [Prepared statement of Ms. Rudman follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Farenthold. Thank you very much, Ms. Rudman.
    I now recognize myself for five minutes.
    Ambassador Kennedy, how many personnel, contractors, and 
U.S. Government employees does Mission Iraq currently have at 
its various sites?
    Mr. Kennedy. Mr. Chairman, we have approximately 16,000 
personnel at this time, representing the State Department and 
all associated agencies, including the Department of Defense 
and the USAID.
    Mr. Farenthold. Do you know how those are broken out versus 
government employees versus contractors?
    Mr. Kennedy. Yes, sir. It is approximately 1900 employees, 
American and Iraqis who are government employees, and 
approximately 14,000 contractors. So relatively 2,000 to 
14,000.
    Mr. Farenthold. And how does that break down? Do you have 
the breakdown of U.S. Personnel versus Iraqi nationals?
    Mr. Kennedy. Yes, sir. There are 1640, plus or minus, 
American U.S. Government employees; 240 Iraqi employees; and 
14,000 contractors.
    Mr. Farenthold. And you don't have the breakdown of how the 
contractors are broken down as far as U.S. Versus Iraqi.
    Mr. Kennedy. Most of the contractors are either Americans 
or third-country nationals. We are increasing every day the 
number of Iraqi contract employees as part of our program. We 
have informed our contractors that in certain categories we 
believe, and they are engaging and they are acting on our 
instructions, they are replacing the third-country national 
contractors with Iraqi contractors.
    Mr. Farenthold. And how safe are our operations in Iraq 
now? At one point you were seeing a reluctance of certainly 
U.S. Personnel to operate outside of the Green Zone. What is 
happening now?
    Mr. Kennedy. Mr. Chairman, our personnel have been 
operating outside the Green Zone since I was in Iraq in 2003 
and 2004. We go outside the Green Zone every day. In the last 
quarter of 2011, calendar 2011, there were 3,000 missions, 
security missions that our personnel executed outside the Green 
Zone, and I believe in the first quarter of this calendar year 
the number is almost up to 4,000.
    Mr. Farenthold. Ms. Rudman, it is my understanding that 
USAID has hired 25 Iraqis to oversee projects because USAID 
employees are reluctant to leave the embassy because of 
security concerns. Is that accurate?
    Ms. Rudman. The 25 field monitors that were hired, who are 
Iraqi field monitors, are not overseeing the projects, they are 
monitoring the work, so it is an added staff for monitoring and 
evaluation work, so it was augmenting our staff to be able to 
be out on the field on a regular basis to help with our 
monitoring and evaluation work.
    Mr. Farenthold. So why can't our personnel be out there? Is 
it accurate that they have security concerns?
    Ms. Rudman. It is accurate that there are security 
concerns. The way that we would describe it would be that the 
security environment in Iraq is improving. It is still not a 
normal security environment in the sense of what we would have 
at embassies elsewhere. So in terms of having the best possible 
monitoring and evaluation work for our projects, it is seen as 
a good thing for our monitoring and evaluation work to have 
Iraqis doing that work. As well, it is also part of, frankly, 
the sustainable development effort to have Iraqis have that 
capacity to do that work so that these projects could 
eventually be handed over.
    Mr. Farenthold. I would like to ask, just to ponder, is 
what needs to be done to create a level of security and 
confidence for our personnel to get out there, but I am running 
out of time. What I did also want to ask you, ma'am, was the 
GAO has reported that Iraq has accumulated a budget surplus of 
over $50 billion, of which $10 billion was available for future 
spending. Why are we pouring a lot of money into Iraq when 
their budget is certainly in better shape than ours?
    Ms. Rudman. Sir, we have been on a glide-path, in fact, to 
reducing the amount of program money that we are putting into 
Iraq on a fairly consistent basis. That is something that we 
are reviewing year to year, how much money we are putting into 
Iraq for program assistance.
    In addition to that, as I described in my testimony, we 
have, working out with Congress, been working on that cost-
sharing arrangements with Iraq so that since 2009 Iraq has 
contributed directly on a dollar-for-dollar basis. They match 
funds, essentially. For everything that we do with them for any 
capacity building, any assistance to the Iraqi Government, they 
match those funds. So we provide purely technical assistance to 
them and they match everything that we do, with the idea that 
any development assistance they are learning how to do and will 
eventually take over and do on their own.
    Mr. Farenthold. America has certainly invested a lot in 
blood and treasure in Iraq.
    I see my time has expired. I will recognize the Ranking 
Member for five minutes.
    Mr. Tierney. Thank you.
    Ambassador Kennedy, how are you?
    Mr. Kennedy. [Remarks made off microphone.]
    Mr. Tierney. Good, thanks. I was beginning to think from 
time to time you are on this Committee.
    Mr. Kennedy. [Remarks made off microphone.]
    Mr. Tierney. I am sure. Would you put your microphone on 
for us, or pull it closer, one or the other? Thanks.
    So you have 14,000 United States personnel in Iraq. What 
was what you said, right.
    Mr. Kennedy. No, sir. There are 16,000.
    Mr. Tierney. Sixteen thousand.
    Mr. Kennedy. Sixteen thousand total, of which 1600 are U.S. 
Government employees, plus another about 240, 250 Iraqi 
nationals who are directly employed by the U.S. Government, and 
about 14,000 contractors, both American, Iraqi, and third-
country national.
    Mr. Tierney. So what are the 14,000 contractors doing?
    Mr. Kennedy. They do movement security; they do static 
security; they do operations and maintenance of our properties 
all over Iraq; they do life support such as feeding our 
personnel; medical; aviation; and a small number that are 
involved in other activities.
    Mr. Tierney. So about 14,000 people to take care of 2,000 
people.
    Mr. Kennedy. That is correct, sir.
    Mr. Tierney. What does the embassy in Egypt look like in 
terms of those same types of considerations.
    Mr. Kennedy. Certainly, the embassy in Egypt does not have 
the security concerns that we face in Iraq. Of that number, 
approximately 6500 of that 14,000 are security personnel. That 
is a presence that we have in Iraq, it is a presence we have in 
Afghanistan. We have nowhere else in the world and it is 
directly related to the security conditions, which are 
improving, but are certainly not at the point where we can not 
rely on our own inherent security personnel.
    Mr. Tierney. How many sites in Iraq are those security 
personnel responsible for?
    Mr. Kennedy. They are responsible for about 13 or 14, 
depending upon how you count one site, whether it is one or 
two.
    Mr. Tierney. And what is the nature of those sites?
    Mr. Kennedy. There is the embassy compound itself; there is 
a logistics annex across the street; there is the Office of 
Security Cooperation Annex, which is also across the street 
from the embassy; there is the police training site; there is a 
support operation we have adjacent to the Baghdad Airport; 
there is our consulate in Erbil and a support site at the Erbil 
Airport in the north; there is our consulate in Basrah; there 
is a joint OSC-I State Department site in Kirkuk; and then 
there are four exclusively DOD Office of Security Cooperation 
sites in Taji, Tikrit, Umm Qasr, and Besmaya, where they carry 
out the foreign military sales development that my colleague 
referred to in his testimony, sir.
    Mr. Tierney. This is for all of you. What lessons are we 
learning in Iraq that we should take heed to learn from when we 
go into the Afghan withdrawal situation? What are the major 
principles?
    I will start with you, Ms. Rudman. What have we learned 
that we ought to make sure that we are well prepared for as we 
start withdrawing in Afghanistan?
    Ms. Rudman. Well, I would say that the way that we have 
approached our work with the Government of Iraq since 2009 has 
been quite informative. When we look at our switch to the 
sustainable development approach with the Government of Iraq so 
that the working in partnership with them and the scope of our 
programs being ones that we ensure that we have their buy-in 
for at the front-end.
    The cost-sharing aspect of it has been a very smart aspect, 
frankly, that you required of us and we worked with you on, so 
that when you literally have their buy-in, it is not just 
theoretical, they have to pay for stuff; they have to make it 
work. There is much less waste involved at the front end so the 
scoping of the programs and the design of the programs makes 
sense for us, makes sense for them. And I think we have seen a 
real shift in our programming and the workability of our 
programming from their end and from ours since that time. I 
would say that is the single most important lesson for us.
    Mr. Tierney. Mr. Verga?
    Mr. Verga. From our perspective, the most important lessons 
that we are learning is the requirement for both advanced 
planning and essentially a continuous cooperation and 
monitoring process as we move through a transitional period. We 
can't drop any of the balls that are going on, and I think it 
was a good lessons in interagency cooperation and information 
sharing that made this transition successful.
    Mr. Tierney. Ambassador, you had more of a broad view. It 
would be tougher for you to pick one.
    Mr. Kennedy. I think my colleagues have touched on it. I 
would say there are three points: Plan, plan, plan. Second, a 
change management vision that, like in football, you go to the 
line of scrimmage and you have a plan, and sometimes you have 
to call an audible, but you have to be prepared to call that 
audible. So I think that we have done that.
    And, third, just as in Iraq we have a glide-path. We 
anticipate that there will be problems; we scope to make sure 
that we are safe and secure and can carry out our mission, but 
depending, as we hope, on the situation beginning to 
continually be more and more stable, we have a glide-path in 
place so that we can reduce our staffing, just as we are now 
doing in Iraq.
    Mr. Farenthold. Are you done?
    I just have one more question, so we will just do a quick 
second round of questions.
    Ambassador Kennedy, you mentioned the Baghdad Police 
College Annex facility as one of the facilities. It is my 
understanding that the United States taxpayers have invested 
more than $100 million in improvements on that site. It was 
intended to house the police department program, a multibillion 
dollar effort that is currently being downsized. As a result of 
the State Department's failure to secure land use rights, the 
entire facility is being turned over to the Iraqis at no cost.
    The GAO reports Mission Iraq has land use agreements or 
leases for only five out of all of the sites that it operates. 
Can you say with confidence that those sites now operating 
without leases or agreements will not be turned over to Iraq 
for free, as was the case with the Police Development Program? 
And what would the cost to the U.S. Taxpayers be if they were 
to lose without compensation all of those facilities?
    Mr. Kennedy. Thank you, Mr. Chairman. First of all, the 
statement that you were reading from about we are closing the 
Baghdad Police development site because of a failure to have 
land use rights is simply factually incorrect. We have a land 
use agreement for that site. As part of the program of the 
Police Development Program, there are periodic reviews that are 
underway and my colleagues who do that--it is not part of my 
general responsibility--on the operating side of the house 
engage in reviews on a six-month basis, both internally and 
with the Government of Iraq.
    It was always our plan to make adjustments to the Police 
Development Program over time, but the statement that somehow 
we have wasted or had everything pulled out from under us 
because of a lack of a land use agreement, sir, is simply 
false.
    For our other properties in Iraq we have agreements, for 
every single property we have in Iraq except for one, which is 
our interim facility in Basrah, which is simply a reincarnation 
of a former U.S. Military facility there. But even in that 
regard we have a long-term agreement that was signed with the 
Government of Iraq by Ambassador Negroponte in 2005 in which we 
swapped properties with the Government of Iraq and they are 
committed to provide us with a 10-acre facility in Basrah of 
our mutual choosing. So we are covered, sir.
    Mr. Farenthold. We will be hearing from the GAO in the next 
panel. I am basing my information on their report, and I think 
it is an important responsibility of this Committee to be 
watchdogs over the taxpayers' dollars. Again, as I questioned 
Ms. Rudman about and mentioned in that questioning, we spent a 
lot of money and a lot of blood in Iraq, and we just need to be 
careful that we are not wasting any more money, or spending any 
more money I guess would be a more polite way to put it, than 
is necessary and that we are carefully guarding the assets of 
the United States Government.
    One of the chief roles, I think, of this Committee is to be 
the watchdog over the purse strings. Please be aware that this 
is something we are going to continue to keep an eye on in all 
of your purviews.
    I realize, as Chairman Chaffetz said earlier, this is a 
very busy legislative day. It is important that we get your 
testimony and other information in, so I will yield back the 
remainder of my time and offer Mr. Tierney five minutes if he 
has any additional questions.
    Mr. Tierney. No, I will go to the next panel.
    I do want to thank the witnesses for their written 
testimony, their comments today, and their accessibility. I 
know that we can follow up on all of this directly with them, 
so in order to expedite it and move forward, I will take care 
and yield back. Thank you.
    Mr. Farenthold. I too would like to thank the panel for 
their appearance and cooperation with this Committee and 
Congress. It is admirable that you are here, took the time, and 
are committed to being open and transparent with this Committee 
and the American taxpayers.
    At this point we will take a short recess to seat the other 
panel and we will resume as soon as they are seated, probably 
less than 10 minutes. So we stand in recess.
    [Recess.]
    Mr. Farenthold. The Committee is called back to order as we 
end our recess and prepare to recognize our second panel.
    First we have Dr. Michael Courts, the Acting Director of 
International Affairs and Trade at the U.S. Government 
Accountability Office. Next we have Ambassador Harold W. 
Geisel. He is the Acting Inspector General at the U.S. 
Department of State. Mr. Micky McDermott is a Special Deputy 
Inspector General for Southwest Asia at the U.S. Department of 
Defense; Mr. Michael G. Carroll is Deputy Inspector General at 
the U.S. Agency for International Development; and the 
Honorable Stuart W. Bowen is a Special Inspector General for 
Iraq Reconstruction.
    Pursuant to the Committee rules, all witnesses will be 
sworn before they testify, so, gentlemen, would you please rise 
and raise your right hands?
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    [Witnesses respond in the affirmative.]
    Mr. Farenthold. Let the record reflect that the witnesses 
answered in the affirmative.
    Please be seated.
    As you know, we have a busy day on Capitol Hill today, and 
in order to allow time for questioning and discussion, we would 
ask that you limit your testimony to five minutes. Your entire 
written statement will be made part of the record. We invite 
you to summarize and hit the high points of your remarks.
    So we will start off with Mr. Courts. You are recognized 
for five minutes.

                 STATEMENT OF MICHAEL J. COURTS

    Mr. Courts. Good morning, Mr. Chairman, Ranking Member 
Tierney. I am pleased to be here this morning to discuss the 
transition from a predominantly U.S. Military presence in Iraq 
to a civilian presence led by the Department of State. This 
work is a continuation of GAO's efforts to review the planning 
and execution of the drawdown of U.S. Forces from Iraq and the 
buildup of the U.S. Civilian-led presence there.
    GAO was asked to testify this morning on U.S. Plans for the 
diplomatic presence and Iraqi commitment to that presence, the 
support capabilities for our sites and personnel in Iraq, and 
our capabilities to provide security for those sites and 
personnel.
    The primary message of my testimony this morning is that 
the State Department and DOD planned for a very large civilian-
led presence in Iraq, but Iraqi commitment to that presence 
remains unclear. Further, the support and security capabilities 
for the presence have not yet been finalized and, most 
importantly, efforts to identify security vulnerabilities and 
progress toward mitigating them are not being fully tracked.
    My first point is that State and DOD planned for a robust 
presence in Iraq. For fiscal year 2012, they allocated an 
estimated $4 billion for the presence and planned to have over 
16,000 personnel at 14 different sites across the country. Most 
of these personnel were to be contractors primarily responsible 
for security and logistical support. As of last month, State 
and DOD were reassessing the presence and developing a plan to 
reduce the number of sites and personnel in Iraq. However, the 
Mission would still comprise, by far, the largest overseas U.S. 
Diplomatic presence in the world.
    My second point is that Mission Iraq has encountered delays 
in establishing basic infrastructure and life support 
capabilities such as housing and water supply. Construction 
projects are behind schedule; Mission Iraq is still revising 
emergency evacuation plans to reflect the absence of an in-
country combat force; and the Mission and its contractors have 
encountered delays and challenges in dealing with the Iraqi 
bureaucracy.
    My final point is that State and DOD have not yet finalized 
security capabilities in Iraq. As you know, Mission Iraq 
personnel and facilities face numerous threats, including 
routine rocket and mortar attacks, roadside bombs, small arms 
firing, and kidnapping. As of last month, the State Department 
had conducted security assessments of the sites that it manages 
and had taken a number of mitigating steps to address 
vulnerabilities. However, while DOD has reported some efforts 
to address vulnerabilities of the sites that they manage, they 
have not fully tracked those efforts.
    In summary, State and DOD planned for the largest 
diplomatic presence in the world, but Iraqi commitment to that 
presence remains unclear. Mission Iraq support functions are 
still very much a work in progress and, most importantly, while 
operational, its security capabilities are not yet fully 
mission capable. Further, DOD's efforts to mitigate security 
vulnerabilities at its sites are not being fully tracked and, 
therefore, it is unclear if and to what extent U.S. Personnel 
and facilities at these locations may be at risk.
    Mr. Chairman and Ranking Member Tierney, this concludes my 
prepared remarks. I would be happy to address any questions 
that you may have.
    [Prepared statement of Mr. Courts follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Farenthold. Thank you very much. We will get to the 
questions after we have heard testimony from the entire panel.
    Mr. Geisel, you are recognized for five minutes.

          STATEMENT OF THE HONORABLE HAROLD W. GEISEL

    Mr. Geisel. Thank you, Mr. Chairman, Ranking Member 
Tierney, and members of the Subcommittee for the opportunity to 
discuss our assessment of the transition to a civilian-led 
mission in Iraq.
    Since 2008, the Department of State Office of Inspector 
General has conducted 35 investigations and 27 audits, 
inspections, and evaluations in Iraq. The Department has been 
responsive to OIG recommendations. In May 2011, OIG reported 
that the U.S. Military was managing more than 370 civilian 
police and advisers. The Department has now assumed 
responsibility for the Police Development Program and is 
consulting with Iraqi officials to evaluate security needs and 
downsize efforts accordingly.
    Pending audit reports from the Special Inspector General 
for Iraq Reconstruction and final funding decisions, OIG will 
audit the Department's oversight of related civilian assistance 
programs in March 2013. In response to State OIG 
recommendations to create an Office of Security Cooperation in 
Iraq sufficient to support Iraqi security forces and manage 
U.S.-Iraqi defense relations, DOD IG found that OSC-I met full 
operating capability in October 2011. We will coordinate to 
monitor OSC-I progress in coordination with DOD IG.
    In May 2011, OIG reported that the Department continued to 
face challenges in establishing provincial posts due to 
questions regarding land use agreements, staffing, 
construction, and life support operations. While security 
threats prevented construction in Mosul, consulates in Basrah, 
Erbil, and Kirkuk opened in 2011 and continuing presence posts 
in Tikrit, Taji, Besmaya, and Umm Qasr currently serve as OSC-I 
operation sites.
    OIG remains concerned about the safety of U.S. Government 
personnel and contractors in Iraq. In May 2011, OIG reported 
that security risks could be mitigated through closer working 
relationships with the Government of Iraq and its security 
forces. During field work for an ongoing audit of private 
security contractors in Baghdad, OIG found that Iraqi security 
forces are routinely detaining private security contractors at 
checkpoints and the Government of Iraq is restricting airspace, 
jeopardizing potential evacuation routes. In April 2013, OIG 
will audit the effectiveness of private security contractors in 
Kirkuk and Mosul.
    The Department procured aircraft and obtained flight 
approval from the Government of Iraq and other foreign 
authorities to establish Embassy Air Iraq, currently operating 
routes between Amman and Baghdad with fares of $2400 and 
between Kuwait City and Baghdad for $1600 round-trip. In 
comparison, as of May 31, 2012, commercial round-trip fares 
between Amman and Baghdad were available for approximately $600 
to $800. OIG will audit the Department's Air Wing Program in 
August 2012 and consider the cost efficiency versus security 
concerns of commercial air travel.
    In May 2011, OIG reported that the cost to provide medical 
care for U.S. Personnel and contractors in Iraq would be 
considerable. A Department contractor now operates nine health 
units. OIG will audit the Department's management of medical 
operations in October 2012.
    In May 2011, OIG reported that Embassy Baghdad lacked 
adequate response plans for a mass casualty event. In January 
2012, OIG reported that Embassy Baghdad and Consulates General 
Basrah and Erbil had created emergency action plans in 
compliance with Department guidelines and had conducted regular 
emergency response briefings and mandated drills.
    Also, in May 2011, OIG reported that embassy facilities 
were near capacity due to addition and relocation of civilian 
staff and contractors. OIG will audit the Department's 
implementation of the Baghdad master plan in July 2012 and 
consider the effects of a proposed 20 to 25 percent presence 
downsizing. We have scheduled a full inspection of the mission 
early in 2013 to include further evaluation of staffing and 
security needs. State OIG is uniquely qualified to provide 
mission-specific oversight in a volatile post-transition 
environment.
    We currently have 19 open investigations related to 
programs and to operations in Iraq, and intend to assign 6 
additional personnel to monitor progress in Iraq. We remain 
committed to providing the Department and Congress a 
comprehensive spectrum of audits, inspections, and 
investigations on the enduring U.S. Presence in Iraq.
    Mr. Chairman, Mr. Tierney, and members of the Subcommittee, 
thank you once again for this opportunity, and I am pleased to 
answer any questions you may have.
    [Prepared statement of Mr. Geisel follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Farenthold. Thank you for your testimony, sir.
    We will now recognize Mr. McDermott for five minutes. You 
are recognized.

                STATEMENT OF JOSEPH T. MCDERMOTT

    Mr. McDermott. Thank you. Good morning, Mr. Chairman, 
Ranking Member Tierney, distinguished members of the 
Subcommittee. Thank you for this opportunity to appear before 
you today to discuss our assessment of the transition from a 
military to a civilian-led mission in Iraq.
    The Office of Security Cooperation - Iraq, referred to as 
the OSC-I, operates under the Chief of Mission authority. OSC-I 
is charged with managing the bilateral security cooperation and 
security systems functions, and maintaining a long-term 
strategic partnership between the U.S. Government and the 
Government of Iraq.
    In recognizing the importance of the challenges concerning 
OSC-I and the fact that the scope of the Security Systems 
Program is one of the largest in the world, we started a series 
of oversight efforts focused on the planning and the 
establishment of OSC-I.
    In 2010, we assessed the planning effort for transitioning 
the security assistance mission. We determined that the OSC-I 
planning was progressing with a significant contribution made 
by an ad hoc cadre of strategic planners operating from within 
U.S. Forces-Iraq. We also identified several planning 
shortcomings and recommended that the U.S. Central Command 
issue Iraq-specific country planning details, assess the 
procedures and resources applied to development of the Iraq-
specific security cooperation related planning guidance, and 
capture lessons learned regarding the experiences of organizing 
the OSC-I.
    In 2011, we assessed the establishment of OSC-I and the DOD 
efforts to provide for its sustained, effective operation in 
post-2011 in Iraq. We found that the establishment of OSC-I was 
on track, but identified some shortfalls in the planning 
efforts. We again determined the shortfalls were due to 
incomplete Iraq-specific plans. We also reported the need for 
planning capability within the Office of Security Cooperation. 
In addition, we observed the need to improve communications 
between both the OSC-I and, externally, to the key officials at 
the Iraq Ministries of Defense and Interior about the OSC-I's 
enduring role regarding U.S. Security Cooperation and 
Assistance Programs.
    In response to our assessment, OSC-I made improvements in 
the flow of information to its personnel and with key senior 
Iraqi officials. The Central Command also responded by issuing 
a completed Iraq Country Plan with necessary security 
cooperation and assistant details.
    On April 16, 2012, we issued a third report, which is 
classified, related to the transition on the management of 
private security contractors in Iraq, including private 
security contractors guarding the OSC-I locations. While the 
OSC-I was generally successful in its transition from DOD to 
the Department of State, the U.S. And Iraq Governments did not 
finalize certain agreements that were envisioned as necessary 
to enable OSC-I's ability to become fully functional within 
Iraq's dynamic post-2011 operating environment.
    Responding to our report in March 2012, senior OSC-I 
officials indicated that the absence of a post-2011 Security 
Agreement or Status of Forces Agreement was affecting aspects 
of its operations. Some of the challenges cited by these 
officials included obtaining or extending land use agreements, 
force protection, passport and visa requirements, and air and 
ground movement.
    The precise impact of these command concerns with respect 
to achieving short- and long-term OSC-I goals is unclear. 
However, having a formal, follow-on Security and Status of 
Forces Agreements was perceived to have value in clarifying and 
stabilizing Iraqi government support for the day-to-day 
operations of OSC-I, and would benefit longer-term relationship 
building.
    In closing, let me emphasize that the DOD IG remains 
committed to providing oversight concerning OSC-I and reporting 
on the progress and challenges of maintaining a long-term 
strategic partnership with the Government of Iraq. We plan to 
return to Iraq early next fiscal year to continue our 
assessment on the operations of the OSC-I.
    Thank you again for this opportunity to discuss the work of 
DOD IG and I look forward to answering any questions you may 
have.
    [Prepared statement of Mr. McDermott follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Farenthold. Thank you very much, Mr. McDermott.
    We will now recognize Mr. Carroll for five minutes.

                STATEMENT OF MICHAEL G. CARROLL

    Mr. Carroll. Thank you, Mr. Chairman, Ranking Member 
Tierney, distinguished members of the Subcommittee. I 
appreciate the invitation and the opportunity that you have 
given me to brief the Committee on the USAID IG's activities in 
Iraq currently and what we see for the challenges for the 
future.
    AID was not part of the massive transition planning 
process, so I will just restrict my remarks to AID's programs.
    As the Committee might know, we started our oversight in 
Iraq in 2003 with long-term TDYs and opened the office of seven 
auditors and two investigators in 2004, so we have a 
substantial body of work over that period of time, and if I 
could just give you some stats quickly.
    We have done over 60 performance audits during that time, 
conducted 153 cost-incurred financial audits covering $5 
billion of USAID expenditures over that period of time, opened 
105 investigations, 45 referrals for prosecution, 13 
indictments, 10 convictions, 40 administrative actions, and 10 
suspension and debarments. So we have done a substantial amount 
of work over time.
    But in the post-transition environment, clearly AID's 
funding has been coming down, as Mara Rudman mentioned, and in 
2013 it is only going to be--well, I shouldn't say only--it is 
going to be $231 million, which is a substantial amount of 
money, but relative to previous years it is on a downward 
trajectory.
    So with State being in a complete cost recovery mode now 
that the State Department is gone and we are not getting 
supplemental funding or essential funding for ICAS and that 
sort of thing, it has become, for us, prohibitively expensive 
to be there.
    So what we are going to do is maintain an office of two 
auditors, one investigator, transfer the other staff to Egypt, 
because when you consider the amount of money being spent by 
AID in Iraq, it ranks third in the region, behind Jordan and 
West Bank-Gaza. So we will continue to provide a robust 
oversight package in Iraq; it just won't be to the extent that 
it has been in the past.
    And our plan for 2013 would be to do three performance 
audits; two major program reviews, one of those being a 
retrospective look back using some of the work that Mr. Bowen 
has done or will do on sustainability, because we see two 
primary challenges for the agency going forward, and Mara 
Rudman discussed them. One is monitoring and evaluation. 
Historically, it has been problematic for AID in Iraq. They 
have relied to a degree on the implementers to provide 
performance data.
    We found the performance data to be suspect at times, and 
the ability to get out and monitor and evaluate the programs, 
get legitimate, accurate performance data has been problematic. 
So without the military, with State Department providing 
security, we will have to see how that goes. So we are going to 
be on that pretty substantially.
    The other challenge that I see, and, again, Mara talked 
about it, was sustainability. Now, AID has transitioned from--
there has been a natural progression from infrastructure and 
reconstruction that AID was doing there for a while to more of 
a traditional development assistance in, like she said, 
technical assistance, democracy and governance, civil society, 
those sorts of things.
    So retrospectively, one of our audits we just issued on the 
IT sustainability, IT systems, it was a pretty bleak story as 
far as the effectiveness of some of the programs that were 
implemented, or not implemented but paid for. So I think the 
lesson learned from that, and I think the agency has gotten it, 
is Iraqi buy-in and, to the extent that they can based on 
guidance from Congress, get a cost-sharing kind of agreement, 
because if they have money in it and it is in their best 
interest, then it will be sustainable; if not, then it is not 
going to be, based on our previous experience.
    So, for us, the one challenge I see as we move forward, and 
it has been a disappointment over time, has been our ability to 
work with the Iraq law enforcement to get local prosecutions. 
We have had some success in Pakistan, we have had success in 
Afghanistan, but, for whatever reason, we have not had success 
in Iraq. We are working with our IG counterparts; we are 
working with the LDAT at the embassy to try and identify law 
enforcement entity in the Iraqi Government. Because as AID 
moves forward and implements more locally with local entities 
and more Iraqis involved, as Ambassador Kennedy said, the fraud 
that is going to take place, if it takes place, is going to be 
perpetrated primarily by Iraqis, and our ability to investigate 
is not a problem, but our ability to take that probable cause, 
find a willing partner in the Iraqi Government so we can do 
local prosecutions, that is what we would like to do, but so 
far problematic. So that is our one major challenge going 
forward.
    Thank you very much, and I look forward to taking any 
questions you might have.
    [Prepared statement of Mr. Carroll follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Farenthold. Thank you, Mr. Carroll.
    Mr. Bowen, you are recognized for five minutes.

               STATEMENT OF STUART W. BOWEN, JR.

    Mr. Bowen. Thank you, Mr. Chairman, Ranking Member Tierney, 
members of the Committee, for the opportunity to appear before 
you and present SIGIR's assessment of the transition from a 
military to civilian-led mission in Iraq. My statement examines 
this question in light of five issues: The Police Development 
Program, the security situation, the Office of Security 
Cooperation, Iraq, the transfer and sustainment of 
reconstruction assets, and the increase in criminal 
investigative activity that we have seen this year. I will 
briefly summarize each of my points in my oral statement.
    The Police Development Program is the single largest 
program to transition from DOD management to State management 
over the last eight months. Interestingly, it transitioned from 
State management to DOD management eight years ago. The initial 
contract was led to the State department, but eventually 
challenges in Iraq and the size and security mission required 
the formation of something called the Multinational Security 
Transition Command-Iraq, which operated the police training 
program for in excess of six years and expended significant 
amount of money.
    The Police Development Program, however, was not well 
planned or well agreed to, or a sufficient agreement wasn't 
secured from the Iraqis, as our audit of last October revealed. 
We have another review coming out this July that will follow up 
on that audit and look at progress made with regard to those 
recommendations, but the most significant events that have 
occurred since then has been the reduction in the size of the 
program; I think a wise reduction, a recognition that the 
Iraqis haven't fully bought into it and that the security 
challenges that continue in Iraq have limited the capacity to 
execute the initial ambitious range of the program.
    Second point, security situation. We saw today again bombs 
across Baghdad killing 15, punctuating what has been a very 
violent June. The year began violently in January. March saw 
the least violent month since 2003. So it is a very volatile 
situation, that is what these stats tell you, in Iraq. 
Notwithstanding whatever those numbers are, the requirements 
for personnel to move about the country are the same as they 
were, essentially, in 2006, 2007. So it is expensive, and that 
is why the largest single expense in Iraq right now for the 
embassy is security. As Ambassador Kennedy pointed out, in 
excess of 6,000 contractors are security contractors, and most 
of the money is going to pay their salaries.
    The Office of Security Cooperation, Iraq is spending about 
$1.5 billion and Iraq security forces fund the money that 
Congress appropriated for training and equipping the Iraqi army 
and the Iraqi police. We issued an audit in April about the 
progress they are making in using that money in the FMS 
program, raised some concerns about the obligation rate, but my 
meetings with General Caslen, who runs the program, assuaged 
our concerns. We will have a follow-up report in July that 
gives concrete points on the progress made regarding the use of 
that money.
    A continuing issue that SIGIR has addressed over the years 
is the transfer and sustainment of projects that we spent $51 
billion producing, and it is not a good story. The audits 
reveal that there was no consensus upon how to transfer these 
projects. Our audit program did stimulate the development of a 
sustainment program and sustainment requirements in contracts, 
but it was, for the most part, too little, too late. Frankly, 
Iraqis have not bought into investing significant sums into 
what we have provided, in part because they are not sure what 
we have provided. That is what I hear over and over again from 
Iraqis, and that is understandable given the weaknesses in the 
database that we developed. Indeed, our audits of the Iraq 
Reconstruction Management System found that it captures maybe 
70 percent of what we provided. That is certainly unacceptable.
    Lastly, we have seen an uptick in criminal investigative 
activity simply because as the program has drawn down, for 
whatever reason, people have been more willing to come forward 
and provide us with leads and, second, some of our technical 
examinations of what happened to that money have produced more 
cases. So we have in excess of 100 investigations going on. We 
just convicted our 71st person this week and our SIGIR 
prosecution initiative continues to produce good fruit.
    So, with that, I will conclude my statement and look 
forward to your questions. Thank you, Mr. Chairman.
    [Prepared statement of Mr. Bowen follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Farenthold. Thank you very much.
    I will now recognize myself for five minutes.
    Mr. Courts, Ambassador Kennedy and I got into a discussion 
about the absence or presence of land use agreements for the 
facilities we have in Iraq. Do you have the current status of 
that, or at least the information from your latest report as to 
what facilities we do and do not have land use agreements for?
    Mr. Courts. Yes. What Ambassador Kennedy may have been 
referring to is that for 13 of the 14 facilities the Iraqis 
have acknowledged a presence through diplomatic notes, but 
there is still only five of the 14 for which we actually have 
explicit title land use agreements or leases.
    Mr. Farenthold. All right, so I am not a diplomat, so what 
does that mean? They say, all right, you can use it until we 
change our minds? Is that basically what those are, or is there 
some force of law to those notes?
    Mr. Courts. Well, the notes are definitely not the same 
thing as having an explicit agreement. As a matter of fact, 
there has already been one case where the Iraqis required us to 
reconfigure, downsize one of our sites, and that was one of the 
sites where we did not have a land use agreement. So, 
obviously, we are in a much more vulnerable position when there 
is not an explicit agreement.
    Mr. Farenthold. All right, Mr. Carroll, I would also like 
to follow up with a question I had on the last panel about the 
use of Iraqi nationals in overseeing some of our 
investigations. What is your opinion on that? Does that strike 
you as a good idea, a bad idea, or something we are stuck with 
because there is no alternative? It seems like Americans would 
be a little bit more concerned about how their tax dollars were 
spent than the Iraqi nationals who are the recipients of those 
tax dollars. It is kind of a fox guarding the hen house, it 
looks like.
    Mr. Carroll. Well, personally, I think it is, like Ms. 
Rudman said, it is an additive sort of step. We would do the 
same thing. For example, in some of the places where it is 
absolutely prohibited because of security, what we will do is 
contract with a local CPA firm, primarily out of Egypt, and do 
a very comprehensive agreed upon procedures document that they 
will go out and they will take pictures, they will ask 
questions. They would do what we would do if we could get 
there. So I think that is what Mara was talking about as well.
    I don't see it as a problem. In fact, I see it as an 
adjunct to, and it is not a replacement for, USAID contracting 
representatives and technical representatives actually getting 
out and ensuring that the work is being done. That is not what 
these people are doing. What these people are doing is going 
out, just doing some monitoring and evaluation, but it does not 
replace what the responsibilities are for the Americans.
    Mr. Farenthold. All right, thank you very much.
    I am not sure if I want to address this to Mr. Courts or 
Mr. Bowen. Whichever one of you seems the most eager to answer 
can take this. I haven't been to Iraq; my information in the 
field of what it is like on the ground there is based on things 
that I have read and reports that I have seen on television. 
But a good many of our facilities are in metropolitan areas, 
including the capital, Baghdad, and I am concerned that we are 
struggling getting food and water to these folks in a safe 
manner. I mean, what is the procedure? Is the food delivered? 
How is that handled and why is it a problem in a metropolitan 
area? There are hundreds of thousands of people in these 
cities, Iraqi nationals that need to be fed. Obviously, it is 
more complicated than just going down to the Safeway, but how 
is that handled and why is it such a problem?
    Mr. Bowen. The State Department, as Ambassador Kennedy 
indicated, continued the LOGCAP contract after the military 
withdrew in December and, thus, the process for bringing food 
into the country continued as well, and that is via convoys 
that come up from Kuwait. There have been challenges: That 
checkpoint has occasionally been closed, there have been 
security challenges with regard to those convoys, and other 
reasons that the shipments have been intermittent and has led 
to an occasional shortage of certain foodstuffs at the 
embassies.
    Ambassador Jeffrey emphasized repeatedly this spring his 
desire to move towards local purchase, but that has been slow.
    Mr. Farenthold. All right. There is also a lot of concern 
about the amount of security that is necessary and how much we 
are spending on it. Could you take a moment, just a typical day 
in the life of an embassy employee? Do they sleep on the 
compound? Do we have security where they are living? Do we 
escort them home.
    It looks like the ratio of contractors to employees is 
almost 7 to 1. I don't know how many of those are security 
personnel. I mean, is it like the President, where everybody 
has a security detail that travels with them everywhere they 
go?
    Mr. Bowen. Yes.
    Mr. Farenthold. How much do they get out and how does that 
work?
    Mr. Bowen. It is, as I said in my statement, very much the 
process that existed in 2007. So the drop in the number of 
attacks has not led to a relaxation in the security 
requirements, and those security requirements are dictated by 
the regional security officer at the embassy.
    In Baghdad, the situation, as a general matter, has 
improved greatly, but still to make a movement outside the 
embassy grounds requires 48 hours of notice, three hardened 
vehicles and a couple of shooters in each vehicle, and limited 
time onsite to carry out your mission. So it is a restrictive 
environment from a security perspective.
    By the way, it is still quite dangerous up at Kirkuk. While 
there haven't been very many duck-and-covers, as we say at the 
embassy this year, that is not the case up at the Kirkuk 
facility. Basrah similarly has a much more difficult security 
situation than those who operate in Baghdad.
    Mr. Farenthold. And do our personnel live near or onsite?
    Mr. Bowen. They live at the embassy in Baghdad, yes.
    Mr. Farenthold. Okay. So we are not sending dozens of 
people home with somebody.
    Mr. Bowen. No.
    Mr. Farenthold. Okay.
    I see my time is way expired. I would recognize the 
gentleman from Massachusetts and we will give him six minutes 
as well.
    Mr. Lynch. You are very kind. Thank you, Mr. Chairman.
    Like it or not, I have been to Iraq, I think, 13 or 14 
times now. A couple of things in the testimony raised some 
concerns for me.
    Mr. Carroll, on USAID, I understand the security situation 
there is very, very difficult, but it seems to me that it is 
probably the worst situation we could have where our inspectors 
can't get out to the sites to review the projects that the 
American taxpayer is paying for. That is just a very tough 
situation. I am very uncomfortable with that. I know I have 
been out many times with Mr. Bowen and his inspectors onsite in 
Iraq.
    There is a certain value in having U.S. Personnel go out 
there, engineers, if possible, to review some of these 
projects. We have had widespread corruption at various levels 
in Iraq, so there has been an experience there that should 
cause us to be very, very cautious about where our money is 
going and whether these projects are being built to proper 
standards, number one, and whether they are being built at all 
and whether some of our money is being diverted.
    Is there any hope here? Is there any way that we could 
enhance the cooperation that we are getting from the Iraqi 
Government by withholding funds for these projects unless we 
get access to those sites and have the ability to do proper 
oversight.
    Mr. Carroll. Well, it is not the Iraqi Government that is I 
don't want to say creating the problem, but it is not the Iraqi 
Government; it is the RSO, as Mr. Bowen said. During the 
transition period, which was a very difficult period, I think 
we would all agree with that, we were turned down on three of 
our seven movement requests.
    But, again, that was a very difficult time. Since then we 
have been able to make site visits and, like Mr. Bowen said and 
you have been there too, it takes a lot of planning. So you 
can't just drop in, which sometimes we would like to do, 
particularly on the investigative side. The way it is going 
now, everybody knows we are coming, so that creates some 
problems for us. But so far we have been able to do our work.
    Now, as AID has moved from what is not their traditional 
kind of work, and that is reconstruction--they were doing that 
quite a bit in the early days--and now it is a lot of technical 
assistance and it is a lot of the meat and potatoes of, like I 
said, democracy and governance and civil society and education 
and health, and those sorts of things, most of that is located 
in and around Baghdad, so it is not like we have to go to 
Basrah, Kirkuk, or something like that. So we are confident 
that if we are smart about it, and we work with the RSO, that 
we can do our job. Like I said earlier, it is extraordinarily 
expensive for us to be there, so we are going to change our 
sort of footprint a little bit, but I want to assure you that 
we are still going to provide substantial oversight of the AID 
programs.
    Mr. Lynch. Okay, thank you.
    Stuart, if I ask you, in terms of the deployment of our--we 
have 6,000 private contractors there. Are these all DynCorp? 
Are they U.S. Nationals? What is the makeup of that security 
force?
    Mr. Bowen. They are not all DynCorp; it is under the 
Worldwide Protective Services contract that the State 
Department manages. Triple Canopy is there and others. The 
guards themselves are third-country nationals as I have 
observed.
    Mr. Lynch. Okay.
    Mr. Bowen. And then there are a variety of other companies 
that are working there. I should say the static guards are 
third-country nationals; those that are running the convoys 
themselves, that are doing the driving of the shooters in the 
Suburbans, are Americans, contractors.
    Mr. Lynch. Okay.
    What is the security--I know we have several sites there 
and you mentioned the difficulty in Kirkuk.
    Mr. Bowen. Yes.
    Mr. Lynch. Give me the worst situations that we have there 
right now for our facilities that Mr. Courts was talking about, 
as well. What is the worst situation we have, is it Basrah?
    Mr. Bowen. It is a close call between Basrah and Kirkuk, 
but Kirkuk is subject to indirect fire quite regularly, and 
that is----
    Mr. Lynch. Are we still getting rocket attacks out of Sadr 
City into Baghdad?
    Mr. Bowen. Very, very infrequently. And the duck-and-covers 
have been minimal at the embassy in Baghdad. Contrarywise, in 
Kirkuk, it is a weekly, if not daily, experience.
    Mr. Lynch. What about Umm Qasr, down at the port there, are 
we having a bad situation down there as well.
    Mr. Bowen. In Basrah, the size of the consulate down there 
is limited and their capacity to move about is limited, and 
because of that the Police Development Program office that was 
going to operate there has been withdrawn.
    Mr. Lynch. Now, is that our decision or was that the Iraqi 
decision?
    Mr. Bowen. Our decision. But the Iraqis, when I was in Iraq 
at the end of April and met with active Minister Asaby, he said 
that he needed maybe 15 or 20 advisors, in his view, from the 
program. The program, as you know, started out at about 200, 
dropped down to 115, now down to about 70 to 80. The plans are 
to bring it down to 30 to 40, and then it will continue to 
evolve and devolve, as it were.
    Mr. Lynch. Mr. Courts, can I address you for a second? 
Where do you see the flashpoints in terms of our facilities. 
You had a whole list of sites that you had identified in your 
testimony. What are the bottom three? What do you worry about 
at night in terms of your facilities there.
    Mr. Courts. Congressman, the State Department and the DOD 
agreed together that they would meet three overarching criteria 
in the area of security to be considered fully mission capable.
    The three criteria that they identified were that they 
would have secure and protected facilities, that they would 
have the ability to achieve the secure movement of their 
people, and that they would have emergency response capability 
in place. They didn't meet those criteria in October and in 
many cases they still don't meet them today. I can't go into 
the details of what the exact vulnerabilities are because that 
is sensitive information; however, I can say that they intended 
to have certain security features in place at sites in October. 
Some of those features are still not in place today. Some of 
them are not slated to be in place until sometime in 2013.
    In addition to that, the State Department intended to have 
the use of MRAPs to help achieve the secure movement of their 
people, the mine resistant ambush protected vehicles. The DOD 
provided, I think, something close to 60 of those vehicles, but 
our understanding is that the Iraqi Government will not allow 
their use, so they are essentially sitting unused right now.
    Mr. Lynch. Okay. Well, that is important for the Committee 
to know. And, again, I am trying to get you to tell me about 
site-specific concerns that you have. Are there some areas that 
you think desperately need security attention right now?
    Mr. Courts. Again, I can't get specific about the sites; 
however----
    Mr. Lynch. Oh, okay. All right. I will let you go on that. 
Okay, we can talk later.
    Thank you. I yield back.
    Mr. Farenthold. Thank you, sir.
    We will now recognize the other gentleman from 
Massachusetts for five minutes.
    Mr. Tierney. Thank you. Does Texas get the sense we are 
ganging up on you.
    Mr. Farenthold. No.
    Mr. Tierney. Which, if any, of you gentleman has been 
looking into the planned work being done on the embassy that 
was reported by Walter Pincus in the Post this morning? Mr. 
Geisel, what kind of work are you doing in terms of evaluating 
the expense there and the purpose?
    Mr. Geisel. Well, we started actually, oh, I guess it was 
about more than three years ago, with an audit of the building 
of the embassy itself and, as you know, we recommended to the 
Department that they recover I believe it was over $200 million 
from the contractor for what was really slipshod, and worse 
than slipshod, construction.
    Mr. Tierney. Did they recover it?
    Mr. Geisel. Not to my knowledge. It would probably take 
court action, and we, in all candor, we understand that asking 
for the money is one thing, and finally getting it after 
battles is another, but we really believe the Department should 
be trying to get it back.
    We, on a continuing basis, audit the Department and 
construction. Now, for instance, let's take the $100 million 
that was mentioned in the article. I don't know if that is an 
absolutely accurate figure, but what I do know is the 
Department does have plans. First of all, you have to remember 
the Department doesn't have that money yet, it is asking the 
Congress for the money. But where we come in is we want to know 
what is the Department going to get for that money. Do they 
have provable savings of $200 million or is it a matter of 
security? Or is it a matter of something nice to have? And we 
will be looking at that. But we can't look too far until and 
unless the Congress decides to give them that money that he 
spoke about.
    Mr. Tierney. Well, I would hope Congress would find the 
answers to those questions before it gave him the money, 
frankly. I mean, it is a $700 million facility before we have 
even started; $700 million, slipshod work, incredible 
expenditure. We went all through those hearings under Henry 
Waxman and others on that, and now they want to be spend $60 
million to $80 million supposedly over the next two years for a 
central utility power plant, underground fuel storage facility, 
wide-fire water distribution, domestic water system, sanitary 
sewer system, stormwater system, and telecommunication system. 
So can you tell us whether or not $700 million just didn't 
address any of those issues in a compound of that size?
    Mr. Geisel. I think the answer is that obviously the way 
the $700 million was spent didn't, and that was in our report. 
And the question now is are you throwing in good money after 
bad or is this something that is going to save us money?
    Mr. Tierney. Has anybody looked at evaluating their 
proposed purpose for using this facility, the number of people 
who are ostensibly going to occupy it and how that may be 
different than at other embassies of similar size and purpose?
    Mr. Geisel. That is really going to be done under our 
Baghdad master plan audit, which begins literally in a matter 
of days. And what we are going to do is review whether the 
infrastructure that is already in place and the proposed new 
construction align with the short-term and long-term diplomatic 
presence. So the answer is we are looking and we will let you 
know.
    Mr. Tierney. I mean, obviously, that should be conditioned 
on that. We also look at part of what they are proposing is a 
classified embassy annex extension, some considerable work, 
maybe $20 million to $35 million on that. It looks to me like 
they are talking about a sniff and some other things in that 
base, some classified stuff. Are you going to be able to see 
what you need to see to make an evaluation of that, or should 
this Committee and others in Congress be looking to make sure 
it is evaluated by some other appropriate entity?
    Mr. Geisel. We have all the clearances we need to look at 
that work, and we certainly will.
    Mr. Tierney. Okay. I mean, having sat through the hearings 
on the original embassy construction and failures or whatever, 
it is something that we definitely have to do. And I also 
question $700 million, none of the seventh of that hundred 
million plus for things that look like they would be intricate 
to any building of that nature out there. How they could have 
left them out is sort of surprising on that.
    I am also very interested that we take a look at how many 
people they plan to have in that facility, what their purposes 
are and how that purpose aligns to what the diplomatic mission 
is. Are we doing diplomacy on that building? Are we doing 
something else? Do we need those people for that particular 
mission? Where does it line up. One mention in this article is 
it going to consolidate other things so we will be taking a 
presence out of other parts of the country and putting them in 
there, only to find out that later mobility and security 
improves and you are going to be kicking them back out. All 
those questions are yours hopefully to give us some advice and 
direction on.
    Mr. Geisel. I would love to have you lead the team. I think 
you are asking the very questions we will be asking.
    Mr. Tierney. Well, I am comforted to know that you are 
going to ask them because I think all of us up here just sit 
here with our mouths gaping open when we look at the amount of 
money for such basic things on that and we look at the 
staggering number of people that they are going to put in an 
embassy that I have not seen in any of the embassies anywhere 
else in comparably sized countries.
    I understand the security issue, but if a country doesn't 
want our people to be moving around, we have to take a look at 
how we limit our presence there and just work with that. This 
idea of having private security people running around getting 
paid what they are getting paid, to then tell us that they just 
can't move and their security advice is to stay put is kind of 
crazy on that. So thank you for your help with that.
    I yield back.
    Mr. Farenthold. Thank you. The gentleman's time has 
expired.
    I would like to thank our witnesses for taking time to be 
with us. As I think the testimony today has made clear, this is 
an ongoing issue, so I suspect we will be seeing many, if not 
all, of you in front of this Committee again, and again I thank 
you for your participation.
    The Committee stands adjourned.
    [Whereupon, at 11:06 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
